Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




COMPOUNDED DRUGS UNDER
    MEDICARE PART B:
 PAYMENT AND OVERSIGHT




                    Daniel R. Levinson
                     Inspector General

                       April 2014
                     OEI-03-13-00270
EXECUTIVE SUMMARY: COMPOUNDED DRUGS UNDER MEDICARE PART B:
PAYMENT AND OVERSIGHT
OEI-03-13-00270

WHY WE DID THIS STUDY
Compounded drugs are customized medications that meet specific needs of individual patients and are
produced in response to a licensed practitioner’s prescription. Compounded drugs that are
contaminated pose a severe threat to public health and safety. An outbreak of fungal meningitis and
other fungal infections in late 2012 was linked to contaminated injectable compounded drugs. As of
October 2013, the Centers for Disease Control and Prevention had reported over 700 cases linked to
this outbreak. Although certain compounded drugs can be eligible for coverage under Medicare Part
B, Medicare does not pay for compounded drugs when the Food and Drug Administration determines
that an entity is producing compounded drugs in violation of the Federal Food, Drug, and Cosmetic
Act (the Act). In light of the 2012 outbreak and increased scrutiny of compounded drugs, we sought to
determine the extent to which Part B paid for compounded drugs and to examine Medicare
Administrative Contractors’ (MAC) policies and procedures for reviewing and processing claims for
compounded drugs.

HOW WE DID THIS STUDY
We surveyed Centers for Medicare & Medicaid Services (CMS) staff and Part B MACs to assess their
oversight of Medicare claims for compounded drugs. We asked CMS and MACs whether they track
the number of claims and the amount paid for compounded drugs and to describe their policies and
procedures for reviewing and processing claims for compounded drugs.

WHAT WE FOUND
We found that neither CMS nor MACs tracked the number of claims for compounded drugs under Part
B or the corresponding amounts paid, and that Part B claims do not contain information that can be
used to systematically identify claims for compounded drugs. We also found that claims for
compounded drugs do not identify the compounding pharmacy; however, this information may be
included in documentation kept by the provider. Finally, we found that most MACs manually
reviewed Part B claims containing “not otherwise classified” codes, which can represent compounded
drugs, to determine payment amounts.

WHAT WE RECOMMEND
The inability to track claims for compounded drugs and identify the compounding pharmacies that
produce these drugs prevents CMS and MACs from taking steps to stop payments for compounded
drugs that are produced in violation of the Act. Therefore, we recommend that CMS (1) establish a
method to identify Part B claims for compounded drugs, (2) explore the possibility of requiring
providers to identify on the Part B claim the pharmacy that produced the compounded drug, and
(3) explore the possibility of conducting descriptive analyses of Part B claims for compounded drugs.
CMS concurred with the first recommendation, did not concur with the second, and conditionally
concurred with the third.
TABLE OF CONTENTS
Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................7 

           CMS and MACs did not track the number of claims or the           

           amount paid for compounded drugs under Medicare Part B ...........7 

           Most MACs manually reviewed Part B claims containing NOC 

           codes, which can represent compounded drugs, to determine 

           payment amounts .............................................................................8 

Conclusion and Recommendations ............................................................10 

           Agency Comments and Office of Inspector General Response.....11

Appendix....................................................................................................13 

           Agency Comments.........................................................................13 

Acknowledgments......................................................................................15 

                  OBJECTIVES
                  1.	 To determine the extent to which Medicare Part B paid providers for
                      compounded drugs in 2012.
                  2.	 To determine Medicare Administrative Contractors’ (MAC) policies
                      and procedures for reviewing and processing Part B claims for
                      compounded drugs.

                  BACKGROUND
                  An outbreak of fungal meningitis and other fungal infections in late 2012
                  was linked to contaminated injectable compounded drugs. As of
                  October 2013, the Centers for Disease Control and Prevention (CDC) had
                  reported over 700 cases linked to this outbreak. Compounded drugs that
                  are contaminated pose a severe threat to public health and safety.
                  Therefore, we determined the extent to which Part B paid for compounded
                  drugs, and we examined MACs’ policies and procedures for reviewing and
                  processing claims for compounded drugs.
                  Compounded Drugs
                  Pharmacy compounding is a practice in which pharmacists combine, mix,
                  or alter ingredients to create a customized medication for an individual
                  patient in response to a licensed practitioner’s prescription. Compounding
                  does not generally include mixing or reconstituting commercial products
                  in accordance with the manufacturer’s instructions or the product’s
                  approved labeling.1 Providers prescribe compounded drugs for various
                  reasons, including:
                      	 a noncompounded version of the medicine is discontinued or
                         generally unavailable,
                      	 the patient is allergic to certain dyes or preservatives in the 

                         noncompounded version, 

                      	 the patient has unique needs and requires tailored dosage strength
                         (e.g., an infant), or
                      	 the pharmacist can combine several medications to increase 

                         compliance in taking the medications.2



                  1
                    Food and Drug Administration (FDA), Limited FDA Survey of Compounded Drug
                  Products. Accessed at http://www.fda.gov/Drugs/GuidanceComplianceRegulatory
                  Information/PharmacyCompounding/ucm155725.htm on November 14, 2012.
                  2
                    The International Academy of Compounding Pharmacists, What Is Compounding?
                  Accessed at http://www.iacprx.org/displaycommon.cfm?an=1&subarticlenbr=1 on
                  October 3, 2013.

Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                  1
                  The quality of a finished compounded-drug product can be affected by
                  numerous factors, including (but not limited to) the quality of the active
                  pharmaceutical ingredient used and the quality of the compounding
                  practices of the pharmacy in which the product is created.3
                  Pharmacy compounding is a vital service that helps many people,
                  including those who are allergic to inactive ingredients in FDA-approved
                  medicines and others who need medications that are not available
                  commercially.4 However, poor compounding practices can result in
                  contamination or medications that do not possess the strength, quality, and
                  purity required, which may pose risks to patients.5
                  Medicare Coverage of Compounded Drugs Under Part B and
                  Part D
                  Medicare Part B. Medicare Part B continues to cover a limited number of
                  outpatient prescription drugs and biologicals (hereinafter referred to
                  collectively as drugs). Part B-covered drugs generally fall into the
                  following categories: drugs furnished incident to a physician’s services
                  (e.g., injectable drugs used in connection with the treatment of cancer);
                  drugs explicitly covered by statute (e.g., some vaccines and oral anticancer
                  drugs); and drugs used in conjunction with durable medical equipment
                  (DME) (e.g., inhalation drugs).6
                  MACs. The Centers for Medicare & Medicaid Services (CMS) contracts
                  with MACs, which are private companies, to process and pay Medicare
                  Part B claims, including those for prescription drugs. As of
                  December 2012, 9 MACs covering 13 Medicare Parts A and B
                  jurisdictions were operational.7 Through Statements of Work, CMS
                  assigns specific functions to MACs and also outlines performance
                  standards for those functions. The functions performed by MACs include,
                  but are not limited to, claims processing, provider enrollment, customer
                  service for providers, medical review, and appeals.8


                  3
                    FDA, Report: Limited FDA Survey of Compounded Drug Products. Accessed at
                  http://www.fda.gov/Drugs/GuidanceComplianceRegulatoryInformation/PharmacyCompo
                  unding/ucm155725.htm on November 14, 2012.

                  4
                    FDA, The Special Risks of Pharmacy Compounding. Accessed at 

                  http://www.fda.gov/ForConsumers/ConsumerUpdates/ucm107836.htm on 

                  November 20, 2013.

                  5
                    Ibid.

                  6
                    68 Fed. Reg. 50428, 50428–50429 (August 20, 2003). 

                  7
                    CMS originally proposed 15 A/B MAC jurisdictions, but as of December 2013 the

                  agency was consolidating these jurisdictions to form 10 A/B MAC jurisdictions. 

                  8
                    The A/B MACs handle provider enrollment functions for their providers; however,

                  DME MACs do not because the National Supplier Clearinghouse handles enrollment for 

                  DME suppliers. 


Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                     2
                  To obtain Part B reimbursement for covered outpatient prescription drugs,
                  health care providers submit claims to MACs using Healthcare Common
                  Procedure Coding System (HCPCS) codes.9 In the case of prescription
                  drugs, each HCPCS code defines the drug name and the amount of the
                  drug represented by the HCPCS code, but does not specify the
                  manufacturer or package size.
                  Part B Coverage of Compounded Drugs. Generally, compounded drugs
                  are eligible for coverage under Medicare Part B.10 However, when FDA
                  determines that an entity is producing compounded drugs in violation of
                  the Federal Food, Drug, and Cosmetic Act (the Act), Medicare does not
                  pay for these drugs.11 For example, by compounding drugs on a large
                  scale, an entity may be operating as a manufacturer without complying
                  with the manufacturing requirements under the Act.12 Such companies
                  may be manufacturing drugs that are subject to the “new drug application”
                  (NDA) requirements of the Act, but for which FDA has not approved an
                  NDA, or drugs that are misbranded or adulterated.13 If FDA has not
                  approved the manufacturing and processing procedures used by these
                  facilities, it has no assurance that the drugs these companies are producing
                  are safe and effective.14
                  In its Medicare Benefit Policy Manual, CMS stated that it will notify
                  MACs when FDA has determined that compounded drugs are being
                  produced in violation of the Act. After the MAC receives subsequent
                  instruction from CMS, it stops Medicare payment for compounded drugs
                  produced in violation of the Act.15 However, there is no code or modifier
                  on Part B claims that can be used to systematically identify compounded
                  drugs.
                  Medicare Part D. The Medicare prescription drug program, known as
                  Medicare Part D, provides an optional prescription drug benefit to all
                  Medicare beneficiaries entitled to Medicare Part A or enrolled in Medicare


                  9
                    CMS uses HCPCS codes to provide a standardized coding system for describing the
                  specific items and services provided in the delivery of health care. 

                  10
                     This refers only to Part B-covered drugs described in the previous section.

                  Section 1862(a)(1)(A) of the Social Security Act (SSA) requires that drugs must be 

                  “reasonable and necessary” to be covered under Medicare Parts A and B. Drugs and 

                  biologicals are defined in section 1861(t) of the SSA. Pricing for compounded drugs is 

                  described in CMS’s Medicare Claims Processing Manual, Rev. 2554, September 28, 

                  2012, ch. 17 § 20.1.2. 

                  11
                     CMS, Medicare Benefit Policy Manual, Rev. 170, May 10, 2013, ch. 15 § 50.4.7. 

                  12
                     Ibid. 

                  13
                     Ibid. 

                  14
                     Ibid. 

                  15
                     Ibid. 


Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                          3
                  Part B.16 Part D plans are administered by private companies, known as
                  plan sponsors, that contract with CMS to offer prescription drug coverage.
                  For compounded drugs under Part D, only the components that satisfy the
                  definition of a Part D drug are allowable costs under Part D.17, 18 Every
                  time a beneficiary has a prescription filled under Part D, the plan sponsor
                  must submit a prescription drug event (PDE) record.19 The PDE record
                  contains drug cost, payment, prescribing, dispensing, and utilization data,
                  as well as a code that indicates whether a prescription is for a compounded
                  drug. To conduct oversight, in February 2013 CMS used this “compound
                  code” to perform a number of descriptive analyses.20
                  Concern About Compounded Drugs
                  A late 2012 outbreak of fungal meningitis and other fungal infections was
                  linked to contaminated injectable products compounded by the New
                  England Compounding Center (NECC). As of October 23, 2013, CDC
                  had reported 751 cases and 64 deaths linked to this outbreak.21 In
                  October 2012, FDA investigators found substantial problems with NECC’s
                  facilities, including mold and bacterial contamination and failure to
                  maintain a sterile environment.22 Between the time of the NECC outbreak
                  and a May 16, 2013, congressional hearing, 10 additional firms had
                  conducted voluntary FDA-overseen recalls of sterile compounded or
                  repackaged drug products.23
                  FDA Authority. At the time of the NECC meningitis outbreak, FDA had
                  limited authority to regulate compounding pharmacies and enforce


                  16
                     The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                  P.L. 108-173.
                  17
                     CMS, Medicare Prescription Drug Benefit Manual, Rev. 10, February 19, 2010, ch. 6
                  § 10.4.
                  18
                     In general, 42 CFR § 423.100 defines a Part D drug as a drug used for a medically
                  accepted indication, dispensed upon a prescription, and approved under the Act. It also
                  includes certain biological products, insulin, medical supplies, and vaccines.
                  19
                     SSA §§ 1860D-15(c)(1)(C) and (d)(2), 42 CFR § 423.322.
                  20
                     For all Part D PDE claims for compounded drugs dispensed in 2012, CMS determined
                  (among other things): the percentage of all covered Part D claims reported as being
                  compounded; the average drug cost for covered compounded drugs per beneficiary; the
                  top-billing pharmacies; and the top drugs.
                  21
                     CDC, Multi-State Meningitis Outbreak—Current Case Count. Accessed at
                  http://www.cdc.gov/hai/outbreaks/meningitis-map-large.html on December 31, 2013.
                  22
                     FDA, FDA Form 483 for New England Compounding Center (Oct. 26, 2012).
                  Accessed at http://www.fda.gov/downloads/AboutFDA/CentersOffices/
                  OfficeofGlobalRegulatoryOperationsandPolicy/ORA/ORAElectronicReadingRoom/UC
                  M325980.pdf on October 7, 2013.
                  23
                     Janet Woodcock, M.D., Director, Center for Drug Evaluation and Research, Statement

                  Before the Subcommittee on Health, Committee on Energy and Commerce May 23, 2013. 

                  Accessed at http://www.fda.gov/NewsEvents/Testimony/ucm353654.htm on 

                  October 7, 2013. 


Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                       4
                  compliance with safety standards.24 The agency normally asserted
                  jurisdiction in situations in which pharmacies had moved from pharmacy
                  compounding to pharmacy manufacturing.25 In November 2013, Congress
                  clarified FDA’s oversight authority of compounding pharmacies in the
                  Drug Quality and Security Act.26

                  METHODOLOGY
                  Data Sources and Collection
                  MAC Surveys. In June 2013, we surveyed the 9 Part B MACs that
                  represented the 13 jurisdictions in effect as of December 2012. The
                  surveys asked about MACs’ policies and procedures regarding Medicare
                  claims for compounded drugs, including the HCPCS code(s) that
                  providers use for compounded drugs, the payment policies for
                  compounded drugs, and any additional information that MACs require
                  providers to include on Medicare claims for compounded drugs.
                  Further, we asked MACs how they identify and review Part B claims for
                  compounded drugs and whether they track the number of such claims or
                  perform any oversight for such claims. We also asked MACs whether
                  they received instructions from CMS to stop payment for certain
                  compounded drugs and, if so, whether they did. We asked MACs whether
                  they were able to determine their Part B payments to providers for
                  compounded drugs and, if so, to provide the total amount paid for these
                  drugs in 2012. All MACs responded to our request.
                  CMS Data. We obtained from CMS all relevant policies and procedures
                  on the coverage of and payment for compounded drugs. We surveyed
                  CMS staff in the Hospital and Ambulatory Policy Group, within the
                  Division of Ambulatory Services, about the agency’s oversight of Part B
                  claims for compounded drugs. Specifically, we asked these staff what
                  instructions CMS provides MACs regarding Part B claims for
                  compounded drugs, whether CMS notified MACs to stop payment for
                  drugs produced in violation of the Act, and whether CMS received
                  information from FDA on entities producing drugs in violation of the Act.


                  24
                     Congressional Research Service, Federal Authority to Regulate the Compounding of
                  Human Drugs (April 12, 2013). Accessed at https://www.fas.org/sgp/crs/misc/
                  R43038.pdf on December 31, 2013.
                  25
                     FDA, Compliance Policy Guidance for FDA Staff and Industry, Section 460.200,
                  May 29, 2002. Accessed at http://www.fda.gov/ICECI/ComplianceManuals/Compliance
                  PolicyGuidanceManual/ucm074398.htm on October 3, 2013. On November 27, 2013,
                  FDA withdrew this guidance because it was no longer consistent with the agency’s
                  current thinking on the issues it addressed. 78 Fed Reg. 72901–72902 (December 4,
                  2013).
                  26
                     P.L. 113-54.

Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                    5
                  We also reviewed Part D policies related to compounded drugs and
                  obtained CMS’s report analyzing Part D claims for compounded drugs.
                  Data Analysis
                  MACs. We reviewed MACs’ survey responses to determine their policies
                  and procedures for reviewing and processing claims for compounded
                  drugs, including the procedure codes, payment policies, and other
                  information required on Part B claims for compounded drugs. From those
                  responses, we determined whether MACs tracked (1) the number of
                  claims for compounded drugs and (2) the amount that Part B paid
                  providers for compounded drugs in 2012.
                  CMS and MAC Oversight. We reviewed CMS’s and MACs’ policies and
                  procedures as well as CMS’s report on its analysis of Part D claims data
                  for compounded drugs. We then analyzed responses from CMS and
                  MACs to determine the extent of each entity’s oversight.
                  Limitations
                  We did not verify the accuracy or completeness of the data provided by
                  CMS or the MACs, or the MACs’ responses to our survey. The scope of
                  this review was limited to CMS’s and MACs’ policies and procedures; we
                  did not collect or analyze information from FDA.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)              6
                  FINDINGS
                  CMS and MACs did not track the number of claims or
                  the amount paid for compounded drugs under
                  Medicare Part B
                  Part B claims do not contain information that can be used to systematically
                  identify all claims for compounded drugs. HCPCS codes for drugs
                  represent specific drugs and dosage amounts; because compounded-drug
                  products are unique combinations of pharmaceutical ingredients, they are
                  not assigned unique HCPCS codes. When billing for compounded drugs,
                  or other drugs that are not associated with specific HCPCS codes,
                  providers use “not otherwise classified” (NOC) codes.
                  CMS reported that it did not track Part B claims for compounded drugs
                  paid under NOC codes in 2012. Although some MACs reported that there
                  are certain criteria specific to compounded drugs (e.g., providers are
                  instructed to enter 1 billing unit, list the drug names, bill at the invoice
                  price, etc.), they also do not track claims for these drugs, and therefore
                  could not determine the total number of claims or amount paid for
                  compounded drugs in 2012.
                  Unlike claims submitted under Part B, those submitted under Part D
                  contain a code—the “compound code”—that indicates whether a
                  prescription is for a compounded drug. Because this information is
                  available on Part D claims, CMS recently conducted oversight by
                  performing a number of descriptive analyses of Part D claims for
                  compounded drugs.
                  Claims for compounded drugs do not identify the
                  compounding pharmacy; however, it may be included in
                  documentation kept by the provider
                  Part B claims for compounded drugs do not include the name or
                  identification code of the compounding pharmacy from which the provider
                  purchased the drugs. There is no requirement for providers to identify the
                  compounding pharmacy on a Part B claim. However, MACs representing
                  eight jurisdictions indicated that the invoice or medical records generally
                  include this information, meaning that the pharmacy name is included in
                  the documentation kept by the provider, and could be obtained upon
                  request.27 MACs representing the remaining five jurisdictions do not
                  require providers to include the information identifying the pharmacies.
                  Without the pharmacy name or a code that identifies the pharmacy, neither

                  27
                     One of these MACs reported that it does not require the invoice, but that it could
                  request the pharmacy information.

Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                           7
                  CMS nor MACs would be able to determine from the claim alone where
                  the provider purchased the compounded drug.

                  Most MACs manually reviewed Part B claims
                  containing NOC codes, which can represent
                  compounded drugs, to determine payment amounts
                  MACs have the general authority for reviewing, pricing, and paying
                  claims.28 MACs representing 10 jurisdictions reported that they manually
                  review claims containing NOC codes, which can represent compounded
                  drugs.29 For example, MACs that conduct manual reviews reported that
                  claims with NOC codes are separated from the other claims and undergo
                  an enhanced review. Because these MACs review all claims with NOC
                  codes and compounded drugs are billed for under NOC codes, these
                  MACs thereby review all claims for compounded drugs.
                  MACs that manually review claims for compounded drugs generally do so
                  to determine the payment amount. Unlike HCPCS codes for specific
                  drugs, NOC codes—including those for compounded drugs—do not have
                  nationally established payment amounts.30 MACs representing several
                  jurisdictions reported that when they manually review claims for
                  compounded drugs, they assign payment amounts on the basis of the
                  description of the drugs that the provider enters on the claim.
                  MACs have similar coding requirements but vary slightly in
                  their payment and reporting processes for compounded drugs
                  All MACs permitted providers to use the NOC code J3490 when billing
                  for compounded drugs. MACs representing 7 of the 13 jurisdictions
                  reported that providers could also use other NOC codes, including J3590,
                  J7799, and J9999. Medicare and its beneficiaries spent $345 million on
                  claims with these four NOC codes in 2012.31 Although MACs require
                  providers to include specific billing codes, most MACs (those for 9 of

                  28
                     For example, according to CMS’s Medicare Benefit Policy Manual, MACs are to stop
                  Medicare payment for compounded drugs produced in violation of the Act only after
                  MACs receive the appropriate instructions from CMS. CMS reported that during 2012, it
                  did not instruct the MACs to stop payment for compounded drugs because it did not
                  receive any communication from FDA regarding pharmacies that FDA determined to
                  have been producing drugs in violation of the Act. As we previously stated, we did not
                  collect any information from FDA.
                  29
                     The manual review is in addition to the automated review and payment process for
                  claims with HCPCS codes for specific drugs. 

                  30
                     Although each NOC code does not have an established payment amount, MACs may 

                  use fee schedules that establish payment amounts for individual drugs that are submitted

                  under each NOC code.

                  31
                     This total includes all claims containing one of these four NOC codes, which includes 

                  claims both for compounded and noncompounded drugs. Therefore, total expenditures 

                  for only compounded drugs would likely be lower.


Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                           8
                  13 jurisdictions) do not require providers to include specific diagnostic
                  codes when submitting claims for compounded drugs. MACs representing
                  all but one jurisdiction require providers to include the names of each drug
                  and the dosage amount on claims for compounded drugs. For all of these
                  12 jurisdictions, MACs require the drug name and dosage amount to be
                  included in a general text field that allows providers to describe the
                  compounded drug. Although MACs representing most jurisdictions
                  require drug names and dosage amounts, none of these MACs require
                  providers to include the component drugs’ National Drug Codes, an
                  11-digit code that identifies the manufacturer, drug product, and the
                  package size.
                  As for payment policies, MACs for 10 of the 13 jurisdictions paid
                  providers in 2012 the invoice price for compounded drugs, i.e., the
                  purchase price from the compounding pharmacy. MACs covering the
                  remaining three jurisdictions paid for compounded drugs using a specific
                  fee schedule, i.e., they had developed payment amounts for the drugs
                  commonly used in compounded products. In addition to paying providers
                  for the drug cost, MACs representing nine jurisdictions also paid providers
                  for additional related costs including shipping, handling, a compounding
                  fee, and tax.




Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)             9
                  CONCLUSION AND RECOMMENDATIONS
                  Our findings indicate that neither CMS nor MACs track the number of
                  claims or the amount paid for compounded drugs under Medicare Part B.
                  Unlike Part D claims, which include a code that identifies claims for
                  compounded drugs, Part B claims do not contain an indicator to identify
                  these drugs. The inability to track claims for compounded drugs and
                  identify the compounding pharmacies limits the ability of CMS and MACs
                  to take steps that could stop payments for compounded drugs produced in
                  violation of the Act.
                  CMS grants MACs the authority to oversee, review, and pay claims for
                  compounded drugs. We found that most MACs manually review claims
                  for compounded drugs to determine payment amounts because
                  compounded drugs are billed under NOC codes that do not have nationally
                  established payment amounts. In other words, these claims undergo a
                  manual review not because they are for compounded drugs, but because
                  they are submitted using NOC codes.
                  Therefore, we recommend that CMS:
                  Establish a method to identify Part B claims for compounded
                  drugs
                  Unlike Part D, Part B does not offer a means of systematically identifying
                  all claims for compounded drugs. If CMS were to establish a method that
                  specifically identifies compounded drug claims (e.g., a modifier) and were
                  to require providers to include this information on all claims for
                  compounded drugs, CMS and MACs could identify and track all Part B
                  claims for compounded drugs.
                  Explore the possibility of requiring providers to identify on the
                  Part B claim the pharmacy that produced the compounded
                  drug
                  Claims for compounded drugs under Part B do not identify the pharmacy
                  that produced the drug. As a result, CMS and MACs are unable to
                  determine where these drugs are being produced. If providers were
                  required to include this information, it would enable CMS to work with
                  MACs to stop payment for drugs produced in violation of the Act.
                  Explore the possibility of conducting descriptive analyses of
                  Part B claims for compounded drugs
                  If claims data were to include information that identified compounded
                  drugs and the pharmacies that produce them, CMS and/or MACs would be
                  able to conduct descriptive analyses of claims for compounded drugs
                  under Part B, similar to the analysis that CMS conducted for such claims
                  under Part D. These analyses could include calculating how much Part B

Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)           10
                  is paying for compounded drugs; determining where compounded drugs
                  are being produced; determining which compounded drugs are being
                  billed for; and, if there are future outbreaks, identifying the claims for
                  drugs produced by the pharmacies linked to these outbreaks.

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation to establish a method to
                  identify Part B claims for compounded drugs and noted that it may be
                  possible to create a modifier or specific code that physicians would be
                  required to use when billing for compounded drugs. CMS stated that this
                  approach may allow compounded drugs to be distinguished from other
                  drugs that are billed under NOC codes, but that any issues related to public
                  safety of compounded drugs should be addressed before the drugs are
                  administered.
                  CMS did not concur with our recommendation to explore the possibility of
                  requiring providers to identify on the Part B claim the pharmacy that
                  produced the compounded drug. CMS stated that it does not need to
                  identify the dispensing compounding pharmacy to pay the physician who
                  is billing for the drugs. CMS noted that it is not clear that authority exists
                  under the statute to collect the suggested information as that information is
                  not necessary to determine the payment amount. CMS also stated that
                  changes to Medicare claims processing systems to accommodate the
                  inclusion of dispensing pharmacy information would be significant and
                  would compete for administrative resources with statutorily required
                  payment methodology changes that necessitate system changes. Further,
                  CMS does not believe that stopping Medicare payment for compounded
                  drugs produced in violation of the Act will be a reliable tool for addressing
                  public safety issues regarding compounded drugs.
                  CMS concurred with our third recommendation to explore the possibility
                  of conducting descriptive analyses of Part B claims for compounded
                  drugs. CMS stated that concurrence was conditional upon successful
                  implementation of the first recommendation and it would undertake such
                  analyses only if it were for a program-related purpose.
                  We recommend that CMS explore the possibility of identifying the
                  pharmacy that produced the compounded drug. We acknowledge that
                  claims analysis is retrospective and identifying the pharmacy on the claim
                  would not by itself address public safety issues. We also recognize the
                  challenges of including additional information on Part B claims.
                  However, this additional information could supplement any descriptive,
                  proactive analyses of Part B claims for compounded drugs, identify

Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)                11
                  pharmacies that may be producing compounded drugs in violation of the
                  Act, and alert providers about pharmacies associated with those violations,
                  which, in turn, could prevent future payments.
                  We did not make any changes to the report on the basis of CMS’s
                  comments. For the full text of CMS’s comments, see the Appendix.




Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)            12
                  APPENDIX
                  Agency Comments




               DEPARTh1ENT OF IJEALTH & HUMAN SERVICES                                  Cantors for Medteare & Medicaid Services


                                                                                        Administrator
                                                                                        Washington, DC 20201



              DATE:
                                MAR 11 1014
              TO:            Daniel R. Levinson
                             Inspector General
                                                  /S/
              FROM: 	        Marllyn Ta"\'enaer
                             Administratou

              SUBJECT: 	 Ofllce of Inspector General (OIG) Draft Report: Compounded Drugs Under
                         Medicare Part B: Payment and Oversight (OEI-03-13-00270)

              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
              comment on the above subject OIG draft report. OIG 's objectives were to detem1ine--( I) The
              extent to which Medicare Part B paid providers for compounded drugs in 20 12; and (2) Medicare
              Administrative Contractors' (MAC) policies and procedures for reviewing and processing Part B
              claims for compounded drugs.

              The OIG surveyed MAC policies and procedures for identifying, reviewing and processing Part
              8 claims for compounded drugs. OIG also collected information about Part 8 policies for
              compounded drugs and oversight of payment for these drugs. Finally. OIG reviewed Part D
              policies related to compounded drugs.

              The OJG found that neither CMS nor the MACs track the number of claims for compounded
              drugs or the amount paid for such claims. OJG pointed out that Part B claims do not contain
              information that would easily identify all claims for compounded drug, and also noted that Part B
              claims for compounded drugs do not identify the compounding phannacy from which the
              provider purchased the drugs. OIG believes that information that identifies the source of the
              compounded drug is available from the provider. The report also described claims processing
              and claims submission requirements at the MACs, finding that most MACs conducted enhanced
              manual reviews of compounded drug claims and that payments were usually based on the
              invoice. OIG also compared claims infonnation in Part B to Part D, noting that infonnation on
              Part D claims identifies claims for compounded drugs.

               OIG Recommendation

               The OIG recommends that CMS establish a method to identify Part B claims for compounded
               drugs.

               CMS Response

               The CMS concurs with this recommendation. Currently, compounded drugs generally are paid
               under "not otherwise classified (NOC)'' codes. These codes are used for all drugs that are not
               specifically described by other codes. We believe that it may be possible to create a modifier or
               specific code that physicians would be required to use when billing for compounded drugs.
               While this approach may allow compounded drugs to be distinguished from other drugs that are




Compounded Drugs Under Medicare Part B: Payment and Oversight (OEl-03-13-00270)                                                    13
                  Agency Comments (continued)




Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)   14
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office.
                  Edward K. Burley served as team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Philadelphia regional office who
                  conducted the study include Kevin McAloon. Central office staff who
                  provided support include Meghan Kearns and Christine Moritz.




Compounded Drugs Under Medicare Part B: Payment and Oversight (OEI-03-13-00270)              15
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
